Cardmember Agreement for Elan Financial Services® Visa® and Mastercard®
Classic, Gold and Platinum Accounts

This credit card program is issued and administered by Elan Financial Services. This information is accurate as of March 31, 2021.
PLEASE NOTE that this information is provided for general information purposes only and is not specific to your Account. See the
Agreement that was provided for your Account and Card for more detailed information, including contact information.
PRICING INFORMATION: Actual pricing will vary from one Cardmember to another.
(APR = Annual Percentage Rate)
(DPR = Daily Periodic Rate)

Annual Percentage Rates for Purchases
This APR will vary with the Market based on
the Prime Rate.

Prime + 4.74% to Prime + 22.74%
(APR) 7.99%

to 25.99%
(DPR) 0.021890% to 0.071205%

Annual Percentage Rates for Balance Transfers
This APR will vary with the Market based on
the Prime Rate.

Prime + 4.74% to Prime + 22.74%
(APR) 7.99% to 25.99%
(DPR) 0.021890% to 0.071205%

Annual Percentage Rates for Cash Advances
This APR will vary with the Market based on
the Prime Rate.

Prime + 4.74% to Prime + 22.74%
(APR) 7.99% to 25.99%
(DPR) 0.021890% to 0.071205%

Penalty APR and When It Applies

There is no Penalty Rate for your Account.

Paying Interest

Your due date is 24-30 days after the close of each billing
cycle. We will not charge you interest on Purchases if you
pay your entire balance by the due date each month. We
will begin charging interest on Advances and Balance
Transf ers on the transaction date.
Minimum Interest Charge
If you are charged interest, then the Minimum Interest
Charge will be no less than $2.00.
For Credit Card Tips from the
To learn more about factors to consider when applying for or
Consumer Financial Protection Bureau using a credit card, visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
Set Up and Maintenance Fees
NOTICE: Some of these set-up and maintenance f ees will
be assessed before you begin using your Card and based
on your Credit Limit, your initial available credit will be less.

Annual Fee
Travel Fee

Transaction Fees

Balance Transf er Advance Fee
Convenience Check Advance Fee
Financial Institution Cash Advance Fee
Cash Equivalent Advance Fee
Cash Advance Overdraft Protection Fee
Cash Advance ATM Fee

You may still reject this Account, provided that you have not
yet used it or paid a fee after receiving a billing statement. If
you do reject the Account, you are not responsible f or any
f ees or charges.
$0 to $50
NONE
Either $5 or 3% of the Transfer or Advance amount,
whichever is greater (maximum fee (No Maximum)).
Either $5 or 3% of the Advance amount, whichever is
greater (maximum fee (No Maximum)).
Either $0 to $10 or 0% to 5% of the Advance amount,
whichever is greater (maximum fee (No Maximum)).
Either $0 to $20 or 0% to 5% of the Advance amount,
whichever is greater (maximum fee (No Maximum)).
Either $0 to $10 or 0% to 4% of the Advance amount,
whichever is greater (maximum fee (No Maximum)).
Either $0 to $10 or 0% to 5% of the Advance amount,
whichever is greater (maximum fee (No Maximum)).

Foreign Transaction Fee

Up to 3% of each foreign transaction amount.

Account Fees
Late Fee
Overlimit Fee
Return Payment Fee

Up to $40
NONE
$0 to $40

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases)”. See the Agreement for more details.
P. O. Box 6352
Fargo, ND 58125

Cardmember Agreement
This is a cardmember agreement and disclosure statement (“Agreement”) between
you and the Issuer containing the terms that will apply to your Credit Card Account
(“Account”) effective March 31, 2021. In this Agreement, “you”, “your" and
“Cardmember” means each individual accepting a solicitation or applying for the
Account or otherwise agreeing to be responsible for the Account. “We”, “us”, “our”,
and “Cardmember Service” means Elan Financial Services, the issuer of the Card
and your Account creditor. Please read this Agreement carefully and keep it in a safe
place to make the best use of the credit cards we issue with this Account (“Card”).
The Agreement becomes effective as soon as you or someone authorized by you
uses or activates the Card or Account. Even if the Card or Account has not been
used or activated, the Agreement becomes effective unless you contact us within 30
days after you receive the Card by calling the number on the back of the Card to
cancel your Account. This web Agreement does not replace the Agreement that is
provided with the Account and Card.
This Agreement contains an arbitration provision (including a class action
arbitration waiver). It is important that you read the entire Arbitration Provision
section carefully.
ACCOUNT FEATURES AND YOUR USE OF THE ACCOUNT
1. Personal Use: You may use the Account only for personal, family or household
purposes. Federal or state consumer protection laws may not apply if you use the
Account for other than personal, family or household purposes.
2. Purchases: You may use the Account to buy, lease or otherwise obtain goods or
services from participating merchants (including transactions you initiate by mail,
telephone or over the Internet), or take advantage of special promotional Balance
Transfer offers that post as Purchase transactions (“Purchases”). We will, in
connection with any promotional offer we make from time to time, provide information
on your Card carrier or in additional materials (the “Offer Materials”) that explain
whether those transactions will post and be treated as a Purchase. Even if you have
not signed a sales draft or the merchant has not supplied you with a written receipt
or other proof of sale, you are responsible for all Purchases made through your
Account, except as expressly limited by applicable law (see Your Billing Rights
section below for more details).
3. Advances: “Advances” are transactions other than Purchases that allow you direct
access to funds available through your Account. Advances may include Account
transactions such as cash advances you obtain directly from us, automated teller
machines (“ATMs”) or other participating financial institutions (“Cash Advances”).
ATM and financial institution Advances include phone (automated phone system and
24 Hour customer service assisted) and Internet transfers. Advances also include
some Balance Transfers, Convenience Checks, FastCash, Overdraft Protection
Advances and Cash Equivalent Advances. “Cash Equivalent Advances” include
transactions to acquire or initiate wire transfers, travelers checks, cashier’s checks,
money orders, foreign cash transactions, casino gaming and betting transactions and
lottery tickets. Monthly Account statements we issue may refer to Advances as an
Advance, Cash, Cash Advances, or by the product or device you used to obtain an
Advance. Refer to the Account Fees section for details on Advance Transaction
Fees.
4. Advance Limits: Only a portion of the Credit Limit (defined below) is available for
Advances and that portion may vary from time to time. Although you may have credit
available under your Account, we may be unable to authorize an Advance. You may
contact Cardmember Service to learn the portion of your Credit Limit which is
available for Advances.

5. Convenience Checks: From time to time, we may supply Convenience Checks for
use by the person(s) or drawer named on those checks. “Convenience Checks” are
drafts that look like other checks, but are drawn on credit available in your Account.
Convenience Checks may not be offered for all Account types. We will, in connection
with any Convenience Check we provide, include Offer Materials that will explain
whether the Convenience Check will post and be treated as an Advance or as a
Balance Transfer. Convenience Checks must be written in U.S. Dollars. We may
return a Convenience Check unpaid if:
(a) the credit available under your Credit Limit is less than the Convenience Check
amount;
(b) the Account is in Default; or
(c) the Convenience Check is improperly endorsed or otherwise fails to conform to
our regularly accepted standards for check payment.
Convenience Checks may not be used to pay your Account or any obligation you
owe us or our affiliates.
6. Paying and Stopping Payment on Convenience Checks: You must write to us or
call to request that payment be stopped on a Convenience Check. You must call us
promptly with an oral stop payment request and then provide us with a written
confirmation of the stop payment request within 14 calendar days. Any written stop
payment request we receive will remain in effect for 6 months, unless you renew the
request in writing before the end of that time. We may pay Convenience Checks more
than 6 months old. There may be circumstances under which a Convenience Check
must be paid, even if we have received a stop payment request from you. We will not
be liable to you if we do not honor your stop payment request under those
circumstances. If it is determined that a Convenience Check should have been paid,
but was not, we will not be liable for any consequential, punitive or incidental
damages if we acted in good faith. Our only obligation under those circumstances
will be to pay the designated payee the amount of the Convenience Check and
cancel any charges assessed against your Account as a result of any wrongful failure
to honor the Convenience Check.
7. Balance Transfers: We may permit you to transfer balances and obligations that
you owe other companies or financial institutions to your Account, subject to the
terms and conditions disclosed in the Offer Materials (“Balance Transfers”). Balance
Transfers will post to your Account and be separately reflected on monthly Account
statements as a Balance Transfer, or, depending upon the offer, may post to the
Account and be treated as a Purchase or an Advance. We will, in connection with
any Balance Transfer offer we make, provide you with materials that explain how the
Balance Transfer will post to your Account and be reflected on monthly Account
statements. You may not request Balance Transfers on existing obligations you owe
us or our affiliates. If you request a Balance Transfer that would cause your Account
to exceed its Credit Limit, we may, at our option, (a) post the entire Bala nce Transfer
requested to your Account; (b) post only a portion of the Balance Transfer requested
to your Account up to the amount of credit available under the Credit Limit; or (c)
refuse to process the entire amount of the Balance Transfer requested.
8. Overdraft Protection: This section is part of the Agreement only if you have
specifically requested and have obtained Overdraft Protection linking the Account
with a designated checking account at a financial institution with which we are
affiliated or with which we have a correspondent relationship. An “Overdraft
Protection Advance” is an advance of funds to your designated checking account
from this Account that will prevent overdrafts on your checking account. You
authorize us to make Overdraft Protection Advances from the Account as provided
in this Agreement. Any Overdraft Protection Advance will post and be disclosed as
either a "Financial Institution Cash Advance" or an "Overdraft Protection Advance”
on your periodic statement, and will be subject to either a Financial Institution Cash
Advance fee or an Overdraft Protection Advance fee, depending on how the Advance
is processed. An Overdraft Protection Advance will be made only once per day, and
will be made in the amount determined by your financial institution (regardless of the
specific overdraft amount). Please verify the amount of the Overdraft Protection

Advance with your financial institution. We may cancel Overdraft Protection
privileges under the Account, even if the Account remains open for other purposes.
Note: For Young Adult Accounts, the young adult’s name and cosigner’s name must
both be named on the linked checking account in order to have Overdraft Protection.
INTEREST CHARGES AND ACCOUNT FEES
9. Account INTEREST CHARGES: INTEREST CHARGES reflect the cost of credit.
Your total INTEREST CHARGE for any billing cycle will equal the amount of any (a)
periodic rate INTEREST CHARGES (sometimes referred to as "interest" in this
Agreement and on monthly Account statements); (b) Advance Transaction Fees; and
(c) any other transaction fees that are considered INTEREST CHARGES.
10. Interest Rate: In this Agreement, we have abbreviated the terms “daily periodic
rate” as DPR, “average daily balance” as ADB, and “ANNUAL PERCENTAGE
RATE” as APR.
(a) Standard Interest RatesRate for "Purchases" and "Balance Transfers": The DPR for transactions posting as
Purchases and Balance Transfers is equal to 1/365th of its corresponding APR. Rate
for "Advances": The DPR and corresponding APR for transactions posting to the
Account as Advances is equal to 1/365th of its corresponding APR.
(b) Your Variable APRs are calculated by addin g a margin to the Index. Your Variable
DPR is equal to 1/365th of the corresponding APR. Your DPR and corresponding
APR may increase or decrease from time to time according to the movements up or
down of the Index, which is the Prime Rate published in the "Money Rates" section
of the Midwest Edition of The Wall Street Journal on the last publication day before
the date on which the billing cycle closed (in other words, the "statement date"). We
reserve the right to choose a comparable new index if The Wall Street Journal ceases
to publish a Prime Rate. The margin is the percentage we add to the Index to
calculate the APR. The current applie d Index value for your Account is 3.25%. Any
variable rate adjustment based on a change to your margin will be effective as of the
first day of the current billing cycle, and will apply to all new Account balances and
transactions subject to that variable rate. Any variable rate adjustment based on a
change to your Index will be effective as of the first day of the current billing cycle,
and will apply to all new and outstanding Account bala nces and transactions subject
to that variable rate. An increase or decrease to the Index or margin will apply to
Purchase, Advance, and Bala nce Transfer balances and will result in an increase or
decrease in the INTEREST CHARGE on the Account, an increase or decrease to
your Minimum Payment, and an increase or decrease to your New Balance.
Introductory and Promotional Rates: We may, at our option, offer you for a limited
time introductory or promotional interest rates for all or part of new Purchase,
Advance, or Balance Transfers posted to your Account. We will tell you in the Offer
Materials the introductory or promotional rate and the period of time during which that
rate will be in effect and any conditions or requirements of the offer. Unless the Offer
Materials state otherwise, an introductory or promotional rate will remain in effect
until the last day of the billing cycle in which the introductory or promotional rate
expires. Any introductory or promotional rate that applies to new or outstanding
Account balances will increase to the standard rate that would otherwise apply, or,
when appropriate under the terms of this Agreement, a Penalty Rate due to an
Adjustment Event (as indicated above).
11. INTEREST CHARGE; Method of Computing Balance Subject to Interest Rate:
We calculate the periodic rate or interest portion of the INTEREST CHARGE by
multiplying the applicable DPR by the ADB (including new transactions) of the
Purchase, Advance and Balance Transfer categories subject to interest, and then
adding together the resulting interest from each category. We determine the ADB
separately for the Purchases, Advances and Balance Transfer categories. To get the
ADB in each category, we add together the daily balances in those categories for the
billing cycle and divide the result by the number of days in the billing cycle. We
determine the daily balances each day by taking the beginning balance of those
Account categories (includin g any billed but unpaid interest, fees, credit insurance
and other charges), adding any new interest, fees, and charges, and subtracting any
payments or credits applied against your Account balances that day. We add a
Purchase, Advance or Balance Transfer to the appropriate balances for those
categories on the later of the transaction date or the first day of the statement period.
Billed but unpaid interest on Purchases, Advances and Balance Transfers is added
to the appropriate balances for those categories each month on the statement date.
Billed but unpaid Advance Transaction Fees are added to the Advance balance of
your Account on the date they are charged to your Account.
Any billed but unpaid fees on Purchases, credit insurance charges, and other
charges are added to the Purchase balance of the Account on the date they are
charged to the Account. Billed but unpaid fees on Balance Transfers are added to
the Balance Transfer balance of the Account on the date they are charged to the
Account. In other words, billed and unpaid interest, fees, and charges will be included

in the ADB of your Account that accrues interest and will reduce the amount of credit
available to you. To the extent credit insurance charges, overlimit fees, Annual Fees,
and/or Travel Membership Fees may be applied to your Account, such charges
and/or fees are not included in the ADB calculation for Purchases until the first day
of the billing cycle following the date the credit insurance charges, overlimit fees,
Annual Fees, and/or Travel Membership Fees (as applicable) are charged to the
Account. Prior statement balances subject to an interest-free perio d that have been
paid on or before the payment due date in the current billing cycle are not included
in the ADB calculation. There may be a minimum INTEREST CHARGE Fee in any
billing cycle in which an INTEREST CHARGE is due. As described above, this
Agreement provides for the compounding of interest on your Account.
12. Paying Interest: You have a 24 to 30 day interest-free period for Purchases
provided you have paid your previous balance in full by the Payment Due Date shown
on your monthly Account statement. In order to avoid additional INTEREST
CHARGES on Purchases, you must pay your new balance in full by the Payment
Due Date shown on the front of your monthly Account statement. There is no interestfree period for transactions that post to the Account as Advances or Balance
Transfers except as provided in any Offer Materia ls. Those transactions are subject
to interest from the date they post to the Account until the date they are paid in full.
13. Advance Account Fees: You agree to pay the following Account fees and
INTEREST CHARGES:
(a) We may add an Advance Transaction Fee INTEREST CHARGE to the
Advance balance of the Account for each Advance you obtain during a billing
cycle in addition to the interest that accrues on Advances. The Advance
Transaction Fee imposed will equal the greater of either a percentage of each
Advance or the minimum dollar amount, subject to the maximum dollar amount.
(b) We may add a Balance Transfer Fee INTEREST CHARGE to the
Purchase balance of the Account except where Offer Materials specify
otherwise.
(c) We may add a Convenience Check Fee INTEREST CHARGE to the
Advance balance of your Account except where Offer Materials specify
otherwise.
(d) We may add an Overdraft Fee INTEREST CHARGE to the Advance
balance of your Account, except where Offer Materials specify otherwise.
14. Account Fees:
(a) We may add a Promotional Discount Transaction Fee INTEREST
CHARGE for each Promotional Discount you receive during the billing cycle,
as outlined in any Offer Materials
(b) Annual Membership Fee. Each year, the Account may be subject to your
payment in advance of an Annual Membership Fee INTEREST CHARGE
which will compensate us for maintaining and servicing the Account for the
following year. This fee will be charged to the Purchase balance of your
Account.
(c) We may add a Late Payment Fee to the Purchase balance of the Account if
your Minimum Payment is not received by the Payment Due Date shown on
the monthly Account statement.
(d) There is no Overlimit Fee on your Account.
(e) We may add a Returned Payment Fee to the Purchase balance of the
Account if any payment on the Account is not honored or if we must return it to
you because it cannot be processed. A check that is returned unpaid will be
sent for collection.
(f) We will add a Duplicate Documentation Fee to the Purchase balance of the
Account for each copy of a monthly statement, sales slip, refund slip, or
Advance slip that you request. There will be no charge for documentation
requests made in connection with a billing error notice, if our investigation
indicates a billing error occurred.
(g) We may add a service charge to the Purchase balance of the Account if you
call us to make a payment on your Account and are assisted by a Cardmember
Service Representative to make the payment. You will be provided with
confirmation of the service charge before the payment transaction is authorized.
(h) We may add a Stop Payment Check Fee to the Purchase bala nce of your
Account if you request a stop payment on a Convenience Check. (See "Paying
and Stopping Payment on Convenience Checks" section above for more
details.)
Under no circumstances will your Late Payment Fee or Returned Payment Fee ever
be greater than your Minimum Payment due and under no circumstance will your
Overlimit Fee ever be greater than the amount your balance is overlimit.
IMPORTANT INFORMATION ABOUT USING YOUR ACCOUNT
15. BalanceShield or Insurance Charges: Your purchase of BalanceShield debt
cancellation or credit life insurance and disability is optional. Whether or not you
purchase BalanceShield or credit insurance will not affect your application for credit
or the terms of any existing credit agreement you have with us. If you elect to

purchase BalanceShield or credit insurance and are eligible to participate, the
monthly program fee or premium (at the rate disclosed to you) will be added to the
Purchase balance as of the closing date of each billing cycle based upon the Account
balance (including accrued INTEREST CHARGES). The terms of your
BalanceShield coverage will be summarized in the Bala nceShield Debt Cancellation
Program Agreement, which will be provided to you upon enrollment. For credit
insurance, the terms of your insurance coverage will be summarized in the Certificate
of Insurance, which will be provided to you. These features are not offered for
Secured Accounts.
16. Credit Limit: The Account Credit Limit is the maximum amount of credit available
under the Account at any time. Under certain circumstances, your Account may
exceed the Credit Limit and you will be responsible for the full amount of the Credit
Limit as well as any amounts owed that exceed the Credit Limit, including fees and
INTEREST CHARGES. You may not request or obtain additional Advances or
Balance Transfers once you have reached your Credit Limit. The initial Credit Limit
is shown on the Card carrier and will also appear on your monthly Account
statements. We reserve the right to review your Account at any time and increase
or decrease your Credit Limit. Cosigner consent is required for Credit Limit
increases. You may not increase your Credit Limit by carrying credit balances over
the Credit Limit we make available to you. (Also see the “Advance Limits” section
above for more information about limits on Cash Advance, Cash Equivalent Advance
and telephone transfer transactions).
17. Payment: You must pay us in U.S. Dollars with checks or similar payment
instruments drawn on a financial in stitution located in the United States. We will also
accept payment in U.S. Dollars via the Internet or phone or previously established
automatic payment transaction. We may, at our option, choose to accept a payment
drawn on a foreign financial institution. However, you will be charged and agree to
pay any collection fees required in connection with such a transaction. The date you
mail a payment is different than the date we receive that payment. For purposes of
this Agreement, the payment date is the day we receive your check or money order
at the address specified on your monthly Account statement or the day we receive
your electronic or phone payment. If you mail your payment without a payment
coupon or to an incorrect address, it may result in a dela yed credit to your Account,
additional INTEREST CHARGES, fees, and possible suspension of your Account.
18. Minimum Payment: Each month, you must pay at least the Minimum Payment
and any past due Minimum Payment(s) by the Payment Due Date shown on your
monthly Account statement. You may, at your option, pay more than the Minimum
Payment or pay the New Balance (as stated on your monthly Account statement) in
full to reduce or avoid the INTEREST CHARGE for the Account. Your Minimum
Payment will be calculated as follows: first we determine the “Base Minimum
Payment,” which is the greater of $30.00 or 1% of your New Balance not including
items (1) and (2) below, which, if not a whole dollar amount, will be rounded to the
next highest dollar. To the Base Minimum Payment, we may add one or more of the
following items, as incurred on your Account: (1) any late, annual and/or any other
Account related fee, (2) the INTEREST CHARGE, and (3) if your Account is over the
Credit Limit, some or all of the balance amount over your Credit Limit. If the resulting
Minimum Payment is greater than $30.00, the total, if not a whole dollar amount, is
then rounded to the next highest dollar not to exceed your New Balance. Any
Minimum Payment or additional amount you pay each month will not prepay any
future Minimum Payments required, or change your obligation to make at least a
Minimum Payment by the Payment Due Date. Any statement credit that results from
a promotional offer or rewards redemption, if applicable, will only be applied to the
Account balance and not satisfy any portion of the Minimum Payment requirements
for this Account.
19. Payment Application: If we cannot collect on your check or other payment item
you send us to pay on your Account, we may post as an Advance transaction an
amount equal to the credit previously given to you for such check or payment item
and we may charge interest on this amount from the date your Account originally was
credited for the payment. After a payment has been made, we reserve the right to
withhold available credit in the amount of the payment for 7 business days. Any credit
available before the payment is made will continue to be availa ble for use during this
time.
20. Skip Payment Option: We may, at our option, occasionally offer you an
opportunity to skip your obligation to make the Minimum Payment due. You may not
skip payments unless we make this offer to you. If we offer you an opportunity to
skip a payment more than once in a 12 month perio d, you will not be permitted to
skip payments required in consecutive months. You cannot accept a skip payment
offer if your Account is delinquent, or is in Default. When you take advantage of a
skip payment offer, the interest will continue to accrue on the entire unpaid balance
of your Account.
21. Change of Address: Your monthly Account statements and notices about your
Account will be sent to the address you provided in your application or your response

to our Account solicitation. To change your address, you must call or write to us. We
must receive this information 21 days before the date a billing cycle closes to provide
your monthly Account statement at your new address. If you have an address
change within 45 days of the expiration date of your Card(s), please contact
Cardmember Service with your new address so your new Card(s) can be mailed to
your new address. We may also update your address in our records without a request
from you if we receive an address change notice from the U.S. Postal Service or if
we receive updated address information from our mail services vendor.
22. Authorized Users: You agree not to allow access to your Card, Account number,
Convenience Checks, or personal identification number (PIN) to anyone else to use
your Account, except by asking us to issue a card to grant Account access to another
person. If you allow access to your Card or Account information, you will be liable
for any charges made by that person, unless and except as expressly required by
applicable law. You agree to be responsible for all Account transactions made by a
Cardmember, or anyone who you have authorized by (a) asking us to issue a Card
to grant Account access to another person; (b) lending your Card to or allowing
Account access by another person; or (c) any other way in which you would be le gally
considered to have allowed another person to use your Account or to be legally
prevented from denying that you did so. Be cautious when allowing another person
to become an authorized user of your Account; once you allow authority to any
authorized user you cannot limit that authority unless the Account is closed to future
transactions. You, as a primary or joint Cardmember must call or write us with any
request to cancel and remove a person’s authority. We will not provide any Account
information to anyone other than you and any Authorized Users. Authorized Users
have no right to make any Account changes or inquiries.
23. Lost or Stolen Card or Other Information: You must notify us immediately by
telephone or in writing if your Card, Convenience Checks, or PIN is lost or stolen or
there is possible unauthorized use of your Card, Account, or PIN. You will not be
liable for unauthorized use of your Account. If this happens, we will ask you and all
other persons given Account access to return all Cards and unused Convenience
Checks to us. In addition, we have the right to close your Account and open a new
Account. If we do so, new Cards will be issued. If requested, we may issue a new
PIN and new Convenience Checks for your new Account.
24. Using Your Card for International Transactions:
Visa: You may use your Card for retail Purchases at foreign merchants and for cash
withdrawals from foreign ATMs. Some merchant and ATM transactions, even if you
and/or the merchant or ATM are located in the United States, are considered foreign
transactions under the applicable rules, in which case we will add the Foreign
Transaction Fee INTEREST CHARGE described in the addendum to those
transactions. We do not control how these merchants, ATMs, and transactions are
classified for this purpose. The exchange rate in effect when the transaction is
processed may differ from the rate in effect on the date of the transaction or the date
of the posting of the transaction to your Account.
If you use your Card at a merchant or an ATM that bears the Visa logo (and no PLUS
System logo), the transaction will be processed through the Visa system and wil be
converted to U.S. Dollars according to the applicable rules established by Visa from
time to time. Currently, the currency conversion rate used by Visa to determine the
foreign currency transaction amount in U.S. Dollars is determined by multiplying the
amount of the foreign currency transaction times (a) a rate selected by Visa from the
range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate Visa itself receives, or (b) the
government-mandated rate in effect for the applicable central processing date. If your
foreign transaction is in foreign currency prior to being processed by Visa, we will
add a Foreign Transaction Fee INTEREST CHARGE of up to 3.00% of the Purchase
transaction or up to 3.00% of the ATM transaction. If your foreign transaction is in or
converted to U.S. Dollars prior to being processed by Visa, we will add a Foreign
Transaction Fee INTEREST CHARGE of up to 3.00% of the Purchase transaction or
up to 3.00% of the ATM transaction. If you use your Card at an ATM that bears only
the PLUS System logo (and no Visa logo), the transaction will be processed through
the PLUS System and will be converted into U.S. Dollars at the exchange rate
established, from time to time, by the operator of that ATM. To the converted
transaction we will not add a Foreign Transaction Fee INTEREST CHARGE. If you
use your Card at an ATM that bears both the Visa and PLUS System logos, the ATM
operator will determine whether to send your transaction over the Visa or PLUS
System network using such network's respective currency conversion rules then in
effect (as explained above).
Mastercard: You may use your Card for retail Purchases at foreign merchants and
for cash withdrawals from foreign ATMs that bear either the PLUS System or the
Mastercard logo. Some merchant and ATM transactions, even if you and/or the
merchant or ATM are located in the United States, are considered foreign
transactions under the applicable Mastercard rules, in which case we will add the
Foreign Transaction Fee INTEREST CHARGE described in this section to those
transactions. We do not control how these merchants, ATMs, and transactions are

classified for this purpose. The currency conversion rate in effect on the processing
date may differ from the rate that would have been used on the date of the transaction
or the date of the posting of the transaction to your Account.
If you effect a transaction at a merchant or an ATM that bears the Mastercard logo
(and no PLUS System logo) with your Mastercard Card in a currency other than U.S.
Dollars, Mastercard International Incorporated will convert the transaction into a U.S.
Dollar amount using its currency conversion procedure, which is disclosed to
institutions that issue Mastercard cards. Currently, the currency conversion rate used
by Mastercard International to determine the foreign currency transaction amount in
U.S. Dollars for such transactions is generally either a government mandated rate or
a wholesale rate determined by Mastercard International for the processing cycle in
which the transaction is processed. If your foreign transaction is in foreign currency
prior to being processed by Mastercard, we will add a Foreign Transaction Fee
INTEREST CHARGE of up to 3.00% of the Purchase transaction or up to 3.00% of
the ATM transaction. If your foreign transaction is in or converted to U.S. Dollars prior
to being processed by Mastercard, we will add a Foreign Transaction Fee INTEREST
CHARGE of up to 3.00% of the Purchase transaction or up to 3.00% of the ATM
transaction.
If you use your Card at an ATM that bears only the PLUS System logo (and no
Mastercard logo), the transaction will be processed through the PLUS System and
will be converted into U.S. Dollars at the exchange rate established, from time to
time, by the operator of that ATM. To the converted transaction we will add a Foreign
Transaction Fee INTEREST CHARGE.
If you use your Card at an ATM that bears both the Mastercard and PLUS System
logos, the ATM operator will determine whether to send your transaction over the
Mastercard or PLUS System network using such network’s respective currency
conversion rules then in effect (as explain ed above).
YOUR LEGAL RESPONSIBILITY IN THIS AGREEMENT
25. Responsibility to Pay: You agree to pay us for all Purchases, Advances, Balance
Transfers, INTEREST CHARGES, Account Fees and charges, any other transaction
charges as provided in this Agreement and, to the extent permitted under applicable
law, attorneys fees and collection costs we incur enforcing this Agreement against
you. This is the case even if your Account is only used by one of you, or is used by
someone authorized by only one of you. If there is more than one Cardmember, each
of you is responsible, together and separately, for the full amount owed on your
Account. Your obligation to pay the Account balance continues even though an
agreement, divorce decree, court judgment, or other document to which we are not
a party may direct another person responsible to pay the Account.
26. Intent to Repay: Every time you use your Account, you represent to us that you
intend to and have the ability to repay your Account obligations. We rely on this
representation every time you use your Account.
27. Settling a Disputed Balance; Payment in Full: If you want to settle a disagreement
with us about any amount you owe by sending a check on which you have written
"Payment in Full" or similar language, you must send us a written explanation of the
disagreement or dispute and any such check to Cardmember Service. (See Your
Billing Rights section below for comple te details.) This address is different than the
address you use to make Account payments. Writing “Payment in Full” or similar
language on the check will not be enough to resolve the dispute. If we collect a check
or any payment instrument marked “Payment in Full” that you sent to an address
other than the one provided in the Cardmember Agreement issued with your Card
(such as the address at which you normally make payments), we will not have waived
our right to collect any remaining amount you owe us under the terms of your Account
28. Default: You and your Account will be in Default if:
(a) we do not receive the Minimum Payment by the Payment Due Date
disclosed on the monthly Account statement;
(b) you violate any other provision of this Agreement;
(c) you die without a surviving joint Cardmember;
(d) you become insolvent, assign any property to your creditors, or go into
bankruptcy or receivership;
(e) you have made false statements on your Account application or in the
maintenance of your Account;
(f) we have any reason to believe that your Account is in danger of, or is being
used for fraud;
(g) you are a marrie d community property state resident and you or we receive
a written termination notice of this Agreement from your spouse;
(h) your Account becomes inactive;
(i) anything happens that we believe in good faith materially increases the risk
that you will not live up to your payment and other obligations under this
Agreement; or

(j) this is a joint Account and one of you notifies us that he or she wants the
Account closed or will no longer be liable on the Account.
You and your Account may also be in Default if you make transactions which go over
your Credit Limit.
29. Illegal Purchases: You agree that you will not use or permit an Authorized User
to use the Card or Account for any unlawful purpose, such as funding any account
that is set up to facilitate online gambling
OUR LEGAL RIGHT TO CHANGE OR CANCEL THIS AGREEMENT
30. Ownership of this Account: Your Card and any other Account access devices that
we supply to you are our property and must be immediately returned to us or our
designated agent or otherwise destroyed or surrendered as we instruct.
31. Changes to your Account: Account and Agreement terms are not guaranteed for
any period of time; we may change the terms of your Agreement, including APRs
and fees, in accordance with applicable law and the terms of your Agreement. Your
transactional experience with us may also cause a change, including an increase in
the margin that is added to the Index, an increase in fees, or a decrease in the Credit
Limit. Factors considered in determining the increased rate or Credit Limit decrease
may include your general credit profile, existence, seriousness and timing of the
defaults under any agreement that you have with us, and other indications of the
Account usage and performance. We will give you notice of any such change in the
manner required by law. Revised Account terms apply as of the effective date
communicated in our notice to you unless the notice provides you with the right to
opt out, and you do opt out, before the effective date.
32. Cancellation of Your Account: We may cancel your Account or suspend your
ability to obtain Account credit immediately, without notice, if your Account is in
Default. Even if you are not in Default, we may cancel your Account by providing
notice to you. You may cancel your Account by notifying us by telephone or in writing.
If you have a secured Account, your termination request must be made in writing. If
this is a joint Account, we will honor a request by either of you to cancel the Account.
After the Account is cancelled, you will not be able to obtain additional Account credit,
except that, (a) the Account may continue to receive recurring charges for items and
services until you contact and cancel delivery with the company providing the item or
service, or (b) under certain circumstances if you use your Account for a transaction,
the transaction may be posted to your Account. After your Account is cancelled, all
amounts outstanding on your Account will be due and payable without notice or
demand from us. You must cut all Cards and Convenience Checks in half and return
them to us. If you do not pay the amount you owe under this Agreement, you willbe
liable for our collection costs including our reasonable attorney fees and expenses of
legal actions, to the extent permitted by applicable law.
33. Assignment of Your Account to Another Creditor: We may assign, sell or transfer
your Account and amounts owed by you to another creditor at any time. If we do, this
Agreement will still be in effect unless and until amended, and any references made
in this Agreement to “we”, “us”, or “our” will refer to the creditor to which we assigned,
sold or transferred your Account or amounts owed under your Account. You may not
delegate your obligations and responsibilities to us to any third party without our
express written consent.
THE ISSUER’S LEGAL RIGHTS AND OBLIGATIONS
34. Collecting Credit Information about You: You authorize us to make any credit,
employment and investigative inquiries we feel are appropriate related to giving you
credit or collecting amounts owed on your Account. You agree that a consumer credit
report may be requested periodically from one or more consumer reporting agencies
(“Credit Bureaus”) and used in connection with your application and any update,
renewal or extension of credit. We will provide information about you, your Account
or your credit history to Credit Bureaus and others who may properly receive that
information.
35. Credit Bureau Disputes: If you believe we inaccurately reported credit history
information about you or your Account to a Credit Bureau, write to the Consumer
Recovery Department, Attn.: CBR Disputes, P.O. Box 108, St. Louis, MO 631669801.
36. Privacy Pledge and Disclosure of Account Information: A copy of our Privacy
Pledge was included with your original Agreement. We also keep copies of our
Privacy Pledge in financial institution offices and post it on our web site. Our Privacy
Pledge describes how we collect, protect and use confidential financial and other
information about you and the circumstances in which we might share information
about you with members of our corporate family and with unaffiliated third parties.
Our Privacy Pledge also tells you how you can (a) limit the ways we share certain

kinds of information about you and (b) request corrections to the information we
maintain about you.
37. Refusal to Honor Transactions: We and our agents are not responsible if anyone
refuses to honor your Card or a Convenience Check, or if authorization for a
particular transaction is not given. Although you may have credit available under your
Account, we may be unable to authorize credit for a particular transaction. The
number of transactions you make in one day may be limited, and the limit per day
may vary. These restrictions are for security reasons and as a result we cannot
explain the details of how this system works. If your Account is over the Credit Limit
or delinquent, authorization of credit for transactions may be declined. We are not
responsible for anything purchased with your Card or a Convenience Check, except
as expressly required by applicable law (see Your Billing Rights section below for
more details). You must return goods you purchased with the Card or Account to the
merchant and not to us.
38. Third Party Offers: From time to time, third parties may provide you with benefits
not related to the extension of Account credit. We are not liable for these features,
services and enhancements, as they are the sole responsibility of the third party
provider. We and/or a third party may add, change or delete entirely these benefits
without notice or liability to you, to the extent permitted by applicable law. You agree
to hold us harmless from any claims, actions or damages resulting from your use of
any of these features, services or enhancements, where permitted by applicable law.
39. Monitoring and Recording Communications: You understand and agree that we,
and anyone acting on our behalf, may monitor and/or record any communications
between you, or anyone acting on your behalf, and us, or anyone acting on our
behalf, for quality control and other purposes. You also understand and agree that
this monitoring or recording may be done without any further notice to you or anyone
acting on your behalf. The communications that may be monitored or recorded
include telephone calls, cellular or mobile phone calls, and any other communications
in any form.
40. Severability: If a court of competent jurisdiction finds any part of this Agreement
illegal or unenforceable, the remaining portions of the Agreement will remain in effect
as written after any such illegal or unenforceable portion is amended in conformance
with applicable law or, if necessary, voided.
41. Entire Agreement: This version of the web Agreement replaces any previous
versions of the web Agreement. The Agreement, as modified by any change in terms
we may deliver from time to time in accordance with applicable law, constitutes the
entire agreement between you and us, and supersedes any prior negotiation,
agreement, or understanding between you and us concerning the subject matter of
the Agreement.
42. Waiver: We do not give up our rights under the Agreement or applicable law when
we fail to exercise or delay exercising those rights. Our failure or delay to exercise
any right or remedy we have against you does not mean that we waive that right.
43. Arbitration Provision:
(a) You agree that either you or we can choose to have binding arbitration
resolve any claim, dispute or controversy between you and us that arises from
or relates to this Agreement or the Account and credit issued thereunder
(individually and collectively, a "Claim"). This does not apply to any Claim in
which the relief sought is within the jurisdictional limits of, and is filed in, a
small claims court. If arbitration is chosen by any party, the following will
apply:
(1) NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE A
CLAIM IN COURT OR TO HAVE A JURY TRIAL ON A CLAIM, OR TO
ENGAGE IN PRE-ARBITRATION DISCOVERY, EXCEPT AS PROVIDED
FOR IN THE APPLICABLE ARBITRATION RULES.
(2) Arbitration will only decide our or your Claim, and you may not
consolidate or join the claims of other persons who may have similar
claims. YOU WILL NOT HAVE THE RIGHT TO PARTICIPATE AS A
REPRESENTATIVE OR MEMBER OF ANY CLASS OF CLAIMANTS, OR AS
A PRIVATE ATTORNEY GENERAL, PERTAINING TO ANY CLAIM
SUBJECT TO ARBITRATION.
(3) The arbitration will be performed in accordance with this Arbitration
Provision and the rules of the chosen arbitrator in effect when the Claim
is filed.
(4) The arbitrator’s decision will generally be final and binding, except
for the limited right of appeal provided by the Federal Arbitration Act.
(5) Other rights that you would have if you went to court might also not
be available in arbitration.
(b) The party commencing the arbitration may select to use either JAMS or the
American Arbitration Association ("AAA") (or, if neither of these arbitration
organizations will serve, then a comparable substitute arbitration organization
agreed upon by the parties or, if the parties cannot agree, chosen by a court of

competent jurisdiction). If JAMS is selected, the arbitration will be handled
according to its Streamlined Arbitration Rules unless the Claim is for $250,000
or more, in which case its Comprehensive Arbitration Rules shall apply. If the
AAA is selected, the arbitration will be handled according to its Commercial
Arbitration Rules. You may obtain rules and forms for JAMS by contacting
JAMS at 1-800-352-5267 or www.jamsadr.com and for the AAA by contacting
the AAA at 1-800-778-7879 or www.adr.org. Any arbitration hearing that you
attend will take place in the federal judicial district where you reside. At your
request, we will advance your filing and hearing fees for any Claim you may
file against us. If you prevail on your Claim, we will pay your arbitration costs
and fees, other than attorney, expert and witness fees and expenses. We will
also pay any fees or expenses that applicable law requires us to pay. The
arbitrator shall apply applicable substantive law consistent with the Federal
Arbitration Act, 9 U.S.C. §§ 1 through 16, including but not limited to applicable
statutes of limitation, and shall honor claims of privilege recognized at law.
Judgment upon the award rendered by the arbitrator may be entered in any
court having jurisdiction.
(c) This Arbitration Provision shall survive repayment of your extension of
credit and termination of your Account. This Arbitration Provision shall be
governed by federal law, including the Federal Arbitration Act, and by Ohio law,
without regard to its internal conflict of law principles, to the extent such state
law does not conflict with federal law or this Arbitration Provision. This
Arbitration Provision shall not apply to a party who is a covered borrower
under the Military Lending Act. Notwithstanding any language of this
Agreement to the contrary, should any portion of this Arbitration Provision be
held invalid or unenforceable by a court or other body of competent
jurisdiction, this entire Arbitration Provision shall be automatically terminated
and all other provisions of this Agreement shall remain in full force and effect.
Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: the costs associated with credit
insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other
than certain participation fees for a credit card account). For a verbal transcrip t of this
disclosure, please call 1-877-292-1682.
YOUR BILLING RIGHTS
Keep this document for future use. This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement:
If you think there is an error on your statement, call or write to us.
In your letter or call, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
What Will Happen After We Receive Your Letter or Call:
When we receive your letter or call, we must do two things:
1.
Within 30 days of receiving your letter or call, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2.
Within 90 days of receiving your letter or call, we must either correct the error
or explain to you why we believe the bill is correct. While we investigate
whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you as
delinquent on that amount.
•
The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•
We can apply any unpaid amount against your Credit Limit.
After We Finish Our Investigation, One of Two Things Will Happen:

If we made a mistake, you will not have to pay the amount in question or any
interest or other fees related to that amount.
•
If we do not believe there was a mistake, you will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you owe. If you receive
our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
•

Your Rights If You Are Dissatisfied With Your Credit Card Purchases:
If you are dissatisfied with the goods or services that you have purchased with your
Card, and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1.
The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
2.
You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
Account do not qualify.
3.
You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing. While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may
report you as delinquent.

SPECIAL RULES FOR CREDIT CARD PURCHASES DO NOT APPLY TO
PURCHASES MADE WITH CONVENIENCE CHECKS OR BALANCE TRANSFER
CHECKS.
z01_ELAN_CLASSIC_GOLD_PLAT

